NATIONAL CREDIT ADMINISTRATION
 OFFICE OF INSPECTOR GENERAL




         REPORT TO CONGRESS

       October 1, 2002 – March 31, 2003
OIG Semiannual Report                                                        March 2003




             INSPECTOR GENERAL'S MESSAGE TO
            THE NCUA BOARD AND THE CONGRESS

It is my pleasure to submit this semiannual report on the accomplishments of the
National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) for the six- month period ending on March 31, 2003. This report
summarizes the major activities and accomplishments of the OIG during this
reporting period.

This was a period of significant change for the OIG. NCUA’s Inspector General
for many years, Frank Thomas, retired on September 2, 2002, and I was appointed
as NCUA’s Inspector General by the NCUA Board on October 17, 2002. I am
excited about the challenges of this responsibility, and I look forward to making
an important and significant contribution as Inspector General.

In our ongoing effort to educate agency employees concerning the investigative
jurisdiction of the OIG, we directed considerable effort this reporting period to
drafting a revision of the agency’s detailed policy statement on reporting various
matters to the OIG. Throughout our revision process, we engaged in a shared
dialogue with agenc y managers to ens ure that past misapprehensions regarding
our investigative jurisdiction are addressed and clarified in the updated policy. I
am hopeful that the completed guidance will be issued in the near future.

During this past reporting period, the OIG completed an audit of NCUA Region
II’s member complaint handling process. As a result of our findings during that
audit, we subsequently initiated a comprehensive review—on a nation-wide basis-
-of NCUA’s member complaint handling process that will also include an
analysis of “best practices” within the federal financial institution regulatory
community. In addition, the financial audit report for the year ending December
31, 2002, rendered unqualified opinions for each of NCUA’s financial funds for
the 18th consecutive year.

The OIG opened seven new investigations and carried over seven investigations
from the last reporting period. We reported on and/or closed ten cases during this
reporting period. Also, we issued one management implication report to agency
management on the inappropriate use of post office boxes for residency
determinations. The three remaining open investigations involve contract fraud
and employee misconduct.


                                         i
OIG Semiannual Report                                                      March 2003



I am grateful for the support and encouragement I have received from the agency
and the warm reception I received from OIG staff. I plan to strive for a
productive and cooperative working relationship with the NCUA Board and
senior NCUA staff, while maintaining the necessary degree of independence. As a
result of input we solicited from the NCUA Board and senior NCUA staff, the
OIG staff worked together at our strategic planning meeting last fall to develop
our 5-year Strategic Plan and Annual Performance Plan. Both plans can be found
on the OIG website. I look forward to the work we have planned and hope that
the agency will gain a better understanding and appreciation of the OIG and its
dedicated employees as a result.




                               Herbert S. Yolles
                               Inspector General




                                       ii
OIG Semiannual Report                                                                                            March 2003


                                             TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE……………………………………………...                                                                                i

NCUA AND OFFICE OF INSPECTOR GENERAL MISSION STATEMENTS…...                                                                    1

INTRODUCTION……………………………………………………………………..                                                                                       2

NCUA ORGANIZATION CHART……...…………………………………………...                                                                                4

NCUA HIGHLIGHTS…...............................................................................................                5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS.......................................                                               6

LEGISLATIVE HIGHLIGHTS....................................................................................                     7

OFFICE OF THE INSPECTOR GENERAL................................................................                                8

          Audit Activity....................................................................................................   9

          Investigative Activity…….................................................................................            12

          Legislative and Regulatory Reviews……….....................................................                           15

TABLE I – REPORTS WITH QUESTIONED COSTS…………………...................                                                              16

TABLE II – REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT                                                                      17
TO BETTER USE.........................................................................................................

TABLE III – SUMMARY OF OIG ACTIVITY...........................................................                                 18

INDEX OF REPORTING REQUIREMENTS………………………………………..                                                                               19
OIG Semiannual Report                                     March 2003


                        MISSION STATEMENTS




                          THE NCUA MISSION
OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY INSURED
CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION COMMUNITY TO EXTEND
AVAILABILITY OF FINANCIAL SERVICES FOR PROVIDENT AND PRODUCTIVE PURPOSES
TO ALL WHO SEEK SUCH SERVICE, WHILE RECOGNIZING AND ENCOURAGING THE
HISTORICAL EMPHASIS BY CREDIT UNIONS ON EXTENSION OF FINANCIAL SERVICES TO
THOSE OF MODEST MEANS.

WE DO THIS BY MANAGING THE SHARE INSURANCE FUND IN AN EFFICIENT AND
PRUDENT MANNER AND ESTABLISHING A REGULATORY ENVIRONMENT THAT
ENCOURAGES INOVATION, FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING NEW
MEMBERS AND IMPROVING FINANCIAL SERVICE TO EXISTING MEMBERS.




            THE OFFICE OF INSPECTOR GENERAL MISSION
THE OIG PROMOTES THE ECONOMY, EFFICIENCY, AND EFFECTIVENESS OF NCUA
PROGRAMS AND OPERATIONS, AND DETECTS AND DETERS FRAUD, WASTE, AND ABUSE,
THEREBY SUPPORTING NCUA’S MISSION OF MONITORING AND PROMOTING SAFE AND
SOUND FEDERALLY INSURED CREDIT UNIONS.

WE ACCOMPLISH OUR MISSION BY CONDUCTING INDEPENDENT AUDITS,
INVESTIGATIONS, AND OTHER ACTIVITES, AND BY KEEPING THE NCUA BOARD AND THE
CONGRESS FULLY AND CURRENTLY INFORMED OF OUR WORK.




                                    1
OIG Semiannual Report                                                          March 2003


                                INTRODUCTION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of December 31, 2002,
the NCUA was supervising and insuring 5,953 Federal credit unions and insuring 3,735
state-chartered credit unions, a total of 9,688 institutions. This represents a loss of 79
Federal and 47 state-chartered institutions since June 30, 2002, for a total loss of 126
credit unions nation-wide.


                             Federally Insured Credit Unions



    12000
    10000
              4257      4180      4062      3980
      8000                                            3866      3735
      6000                                                                        FISCUs
                                                                                  FCUs
      4000    6981      6815      6566      6336      6118      5953
      2000
          0
              1997      1998      1999      2000      2001      2002

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, including
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational cha rt on page 3.

The NCUA Board adopted its 2003 budget on November 21, 2002. The final revised
2003 budget of $146,079,711 represents a decrease of $489 million from the 2002



                                             2
OIG Semiannual Report                                                     March 2003


budget. The Full Time Equivalent (FTE) staffing authorization for 2003 is 971, a
reduction of 24 positions over the 2002 total of 995.


                                      NCUA Budget Dollars

       Millions
           160
           140
           120
           100
            80
            60
            40
            20
             0
                   1997      1998      1999       2000   2001   2002   2003




                                    NCUA Authorized Staff

    1200

    1000

     800

     600

     400

     200

       0
            1997          1998       1999     2000       2001   2002     2003




                                              3
OIG Semiannual Report                      March 2003




                 NCUA ORGANIZATION CHART




                            4
OIG Semiannual Report                                                        March 2003



                             NCUA HIGHLIGHTS

NCUA PLANS REGIONAL OFFICE REALIGNMENT

In November 2002, the NCUA Board approved a regional restructuring plan to relocate
the agency’s Region VI (Concord, Calif.) regional office from a high cost to lower cost
area and to close its Region IV (Chicago) regional office as a result of the decrease in
number of credit unions and the increased efficiencies implemented by the agency. These
cost cutting measures, which will save the agency approximately $27 million over 10
years, were taken after a review by the Accountability in Management (AIM) study
initiated by NCUA Chairman Dennis Dollar in 2001. The five-region alignment is
scheduled to become effective January 1, 2004.

NCUA EASES MEMBER BUSINESS LENDING RULES

At its March 2003 Board meeting, the NCUA Board issued a proposed rule updating
member business lending regulations for federally insured credit unions. The proposed
rule, open for public comment for a 60-day period, “is designed to increase access to
small business capital for credit union members consistent with the authority granted by
Congress through the Federal Credit Union Act,” according to Chairman Dollar.

NCUA APPROVES NEW SET OF FIELD OF MEMBERSHIP RULES

Also at its March 2003 Board meeting, the NCUA Board issued a comprehensive
revision to federal credit union chartering and field of membership rules to provide
greater diversification options for federal credit unions consistent with the Credit Union
Membership Access Act and recent court decisions.

NCUA BOARD NAMES JOHNSON AS VICE CHAIR

On January 15, 2003, the NCUA Board voted unanimously to name JoAnn Johnson as
the Vice Chair of the Board. The designation was effective immediately. When the
NCUA Board selected a Vice Chair in the past, it was traditionally the other Board
Member from the same political party as the Chairman and the President. Vice Chair
Johnson was an Iowa State Senator prior to her appointment to the NCUA Board in 2002.
Johnson was nominated to a seat on the NCUA Board by President George W. Bush in
November 2001.




                                            5
OIG Semiannual Report                                                          March 2003


   FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit semiannual call reports (financial and operational data) to
       NCUA. An NCUA staff assessment of the December 31, 2002, semiannual call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were stable.

KEY FINANCIAL INDICATORS STABLE

Looking at the December 31, 2002 annual statistics for major balance sheet items and key
ratios shows the following for the nation’s 9,688 federally insured credit unions: assets
grew 11.1 percent, or $55.5 billion; net worth to assets ratio decreased from 10.8 percent
to 10.7 percent; the loan to share ratio to decrease slightly from 73.8 percent to 70.8
percent; the delinquency ratio decreased from .82 to .80 percent; and credit union return
on average assets increased from .94 percent to 1.1 percent.

SAVINGS INCREASED DURING 2002

Total share accounts increased 10.8 percent, or $47.1 billion; share drafts increased 7.1
percent; regular shares increased 15.2 percent; share certificates increased .1 percent;
money market shares grew 24.3 percent; IRA/KEOGH accounts grew 8.2 percent; and
other shares increased 9.7 percent.

LOAN GROWTH ALSO INCREASED DURING 2002

All loan categories, except for unsecured credit card loans and all other unsecured loans,
experienced growth. Loan growth of 6.3 percent resulted in an increase in total loans of
$20.2 billion. However, shares grew at a faster rate than loans, causing the loan to share
ratio to decrease slightly from 73.8 percent in 2001 to 70.8 percent in 2002.




                                            6
OIG Semiannual Report                                                        March 2003




                       LEGISLATIVE HIGHLIGHTS




CHAIRMAN DOLLAR APPEARS BEFORE HOUSE SUBCOMMITTEE TO
DISCUSS CREDIT UNION PROVISIONS IN FINANCIAL SERVICES
REGULATORY RELIEF ACT OF 2003

On March 27, 2003, NCUA Chairman Dollar appeared before the House Subcommittee
on Financial Institutions and Consumer Credit to discuss NCUA’s views on H.R. 1375,
the “Financial Services Regulatory Relief Act of 2003.” Chairman Dollar reiterated
recommendations NCUA had previously provided addressing regulatory relief and
productivity improvements for federal credit unions. The Act currently includes thirteen
provisions relating to credit unions, including a proposal introduced on January 27, 2003,
to amend the Federal Credit Union Act to exclude loans made to non-profit religious
organizations from Member Business Loan caps.

BANKRUPTCY REFORM LEGISLATION UPDATE

On March 19, 2003, the House approved legislation, H.R. 975, the Bankruptcy Abuse
and Consumer Protection Act of 2003, by a vote of 315 to 113. The House approved an
amendment cosponsored by Representatives Patrick Toomey (R-PA) and Brad Sherman
(D-CA) that revises the laws with respect to the termination and netting of financial
contracts for federally insured credit unions. At this time, the course of action in the
Senate is uncertain.

SARBANES-OXLEY ACT OF 2002 COMPLIANCE CONSIDERED

As private sector corporations strive to reform their internal governance in conformance
with the requirements of the Sarbanes-Oxley Act of 2002 (Act), federal agencies,
including NCUA, are considering the eventual impact the Act will have in the federal
community. Given NCUA’s responsibility as an insurer of a large public risk insurance
fund, the NCUA Office of Inspector General has begun monitoring the Act to determine
whether the agency’s policies are in accord with the spirit of the Act.




                                            7
OIG Semiannual Report                                                      March 2003



             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, Deputy Inspector General for Audits, Counsel to
the Inspector General, Senior Special Agent, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                           8
OIG Semiannual Report                                                          March 2003



                                AUDIT ACTIVITY
AUDIT REPORTS ISSUED

Region II Member Complaint Process Review
OIG-03-01 March 31, 2003

Member inquiries and complaints received by NCUA regional offices typically include
complaints against credit unions; credit report requests; inquiries on how to correct credit
reports; requests for reconsideration of a loan denial; complaints against banks or other
non-credit union institutions; and loan documentation requests intended for a credit
union.

The manner in which NCUA responds to inquiries and complaints by credit union
members and the public plays a part in fulfilling the agency’s vision of working with the
cooperative credit union system to provide service to all segments of American society
and to enable credit union members to thrive in the 21st century.

The purpose of this review was to evaluate Region II’s process and effectiveness in
addressing complaints and inquiries received from members of natural person credit
unions during 2002.

We observed that Region II’s process and methods were appropriate for the region’s
current guidance, and that the region has devoted significant resources to respond to
member complaints and inquiries. Region II appears to be going the extra mile in
attempting to resolve member complaints against credit unions.

We noted that like other NCUA regions, Region II is devoting significant resources to
member inquiries and complaints that are non-regulatory or non-compliance in nature.
Our sample review indicated two-thirds of the complaints addressed by the region were
non-regulatory or non-compliance related complaints. Management estimated that eighty
percent of all complaints handled were non-regulatory or non-compliance-related.

Overall, we concluded that Region II takes seriously its responsibility to answer inquiries
in a timely and professional manner. We discussed the results of our review with
regional management and staff. Our report provided four recommendations for
improving the member complaint process in Region II.

As a result of our findings during the course of the Region II review, we subsequently
conducted a more comprehensive national review of NCUA’s overall member complaint
process, encompassing the additional NCUA regional offices. We intend to issue a report
on this subsequent review in the near future. That report will include a detailed
consideration of NCUA’s role in responding to consumer complaints that do not allege
violations of consumer laws and regulations.



                                             9
OIG Semiannual Report                                                       March 2003



NCUA Financial Statement Audits, dated March 31, 2003

Our contract accounting firm, Deloitte & Touche LLP, issued opinions on the 2002
financial statements of the National Credit Union Administration Operating Fund,
Natio nal Credit Union Share Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund. The auditors found that the financial
statements presented fairly the financial position of the agency’s funds as of December
31, 2002. The firm issued its opinions on February 28, 2003.

The NCUA Operating Fund (OIG-03-02) was established as a revolving fund managed
by the NCUA Board for the purpose of providing administration and service to the
federal credit union system. The auditors issued an unqualified opinion on the
Operating Fund’s financial statements. The Funds total assets for 2002 were $55.9
million, down from $57.2 million in 2001.

The National Credit Union Share Insurance Fund (OIG-03-03) was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all
Federal credit unions and qualifying state credit unions up to $100,000 per shareholder
account. The auditors issued an unqualified opinion on the Share Insurance Fund’s
financial statements. The Fund’s total assets for 2002 were $5.7 billion, up from $5.1
billion in 2001.

The Central Liquidity Facility (OIG-03-04) was established as a mixed ownership
government corporation managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The auditors issued an
unqualified opinion on the CLF’s financial statements. The CLF’s total assets for 2002
were $1.1 billion, up from $985 million in 2001.

The Community Development Revolving Loan Fund’s (OIG-03-05) purpose is to
stimulate economic activities in the communities served by low-income credit unions.
This in turn will result in increased income, ownership and employment opportunities for
low-wealth residents and other economic growth. The auditors issued an unqualified
opinion on the Fund’s financial statements. The CDRLF’s total assets for 2002 were
$13.3 million, down from $13.8 million in 2001.

The financial auditors did not find any matters considered to be material weaknesses in
their review of the Funds’ internal control structures pertinent to financial reporting.
However, during the performance of the audit, several observations and
recommendations were presented relating to internal control over financial reporting, and
certain other accounting, administrative, and operating matters.




                                           10
OIG Semiannual Report                                                        March 2003


AUDITS IN PROGRESS

National Review of NCUA’s Member Complaint Handling Process

The objective of this review is to provide a detailed consideration of NCUA’s role in
responding to consumer complaints that do not allege violations of consumer laws and
regulations. We will evaluate the best practices of other federal financial institution
regulators in responding to consumer complaints, and provide the NCUA Board with
options for improving the process within NCUA.

Review of NCUA’s Parking Operations Agreement

It has been 10 years since NCUA originally entered into a parking lot operations
agreement for management and operation of the parking garage located directly under the
NCUA Central Office Building at 1775 Duke Street, Alexandria, Virginia. This review
will focus on the controls in place to ensure the accurate reporting of revenue and
expenses related to NCUA’s parking spaces.

Review of NCUA’s Risk Based Exam Scheduling Process

The objective of this review is to evaluate the guidance provided to NCUA’s regional
offices and regional office implementation of this guidance in selecting credit unions for
participation in the Risk Based Exam Scheduling Program.



SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of March 31, 2003, there were no significant audit recommendations on reports issued
over six months ago that have not been either fully implemented or in the process of
implementation.




                                           11
OIG Semiannual Report                                                       March 2003




                       INVESTIGATIVE ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the OIG performs investigations of criminal,
      civil, and administrative wrongdoing involving agency programs. Our
      investigative jurisdiction focuses on activities designed to promote
economy, effectiveness, and efficiency, as well as fighting fraud, waste, and
abuse in agency programs. In addition to our efforts to deter misconduct and
promote integrity awareness among agency employees, we investigate referrals and direct
reports of employee misconduct.       Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and
other statutes and regulations pertaining to the activities of NCUA employees.
Investigative findings may lead to criminal prosecution, civil prosecution, or
administrative action.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. These complaints are examined to determine
whether there is any allegation of NCUA employee misconduct. If not, the complaint is
referred to the appropriate regional office for response, or closed if contact with the
regional office indicates that the complaint has already been appropriately handled.


                       Investigative Operations


                           Contacts/inquiries/investigations carried 7
                             forward from previous reporting period

                           Contacts initiated during reporting period   7

                           Contacts closed                              1

                           Investigative reports issued                 6

                           Matters referred back to the agency          3

                           Manageme nt Implication Reports issued       1

                           Matters remaining open                       3




                                          12
OIG Semiannual Report                                                         March 2003


CLOSED INVESTIGATIONS

Misuse of Travel Card

Based on findings from a previous review and referrals, we investigated and/or closed
five cases involving questionable charges appearing on employees’ government travel
charge card reports. Each of these cases revealed charges for personal items in violation
of agency policy for use of the travel card. Three of these cases were referred back to the
agency for management action based on de minimis personal charges.

In one case, the employee’s personal charges totaled in excess of $6,000. The agency
suspended the employee for three days.

In another case, the employee charged several thousand dollars in personal purchases.
The agency has proposed a three day suspension for the employee and is currently
deliberating a final decision.

Improper Conduct

The OIG investigated allegations that two employees revealed to an outside party agency
financial information obtained during the course of their duties. One employee was
determined not to have been involved, and the other employee was determined to have
engaged in inappropriate conversation while intoxicated. The employee was issued a
letter of reprimand.

False Claims/False Statements

During this reporting period, we conducted three investigations regarding false claims on
travel vouchers and/or false statements given to a Federal Agent while under oath.

In one investigation, the employee was alleged to be in violation of a direction to reside
within her assigned duty station. The employee’s actual residence, which was
approximately 100 miles from her claimed address, enabled her to submit false vouchers
which claimed a substantially higher locality pay, and enabled her to obfuscate her actual
hours of work. The United States Attorney’s office authorized the use of administrative
Kalkines warnings for this investigation. During her interview with the OIG, the
employee provided false testimony while under the Kalkines immunity agreement.
NCUA management is currently deliberating a course of action in this matter.

Two investigations involved allegations of false vouche r claims for travel reimbursement
and related falsification of attendance at a required agency training session. The United
States Attorney’s office authorized the use of Kalkines warnings in both cases. In one of
the cases, the employee provided false testimony to the OIG while under the Kalkines
immunity agreement. However, the employee subsequently acknowledged the false
statement during the same interview.




                                            13
OIG Semiannual Report                                                         March 2003


In the other investigation, the employee acknowledged the false claim, and also admitted
to other false claims. The agency is currently deliberating appropriate disciplinary action
in both cases.

Open Investigations

The OIG is currently conducting an initial inquiry into allegations of contract fraud by a
government contractor. Additionally, we have two open investigations involving
employee misconduct.

Agency Referrals

During this reporting period the OIG received seven written requests for investigations of
actions taken by credit unions. These matters were referred to the agency for appropriate
action.




                                            14
OIG Semiannual Report                                                       March 2003



          LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and operations
of NCUA and to make recommendations concerning their impact. Moreover, we
routinely review proposed agency instructions and other policy guidance, in order to
make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 15 items, including proposed and final
changes to legislation, regulations, and agency Interpretive Ruling and Policy Statements
(IRPS).

          SUMMARY OF STATUTES AND REGULATIONS REVIEWED

       Legislation                                     Title
 H.R. 975                  “Bankruptcy Abuse and Consumer Protection Act of 2003”
 H.R. 1375                 “Financial Services Regulatory Relief Act of 2003””
 H.R. 4685                 “Accountability of Tax Dollars Act of 2002"
 H.R. 2458                 “E-Government Act of 2002”
 H.R. 3162                 “USA PATRIOT Act”
 H.R. 3763                 “Sarbanes-Oxley Act of 2002”

  Regulations/Rulings                                  Title
 12 CFR Part 701           Final Rule on Chartering and Field of Membership
 12 CFR Parts 702, 704,    Notice of Proposed Rulemaking on Prompt Corrective Action;
 712, 723                  Corporate Credit Unions; Credit Union Service Organizations;
                           and Member Business Loans
 12 CFR § 701.19           Final Rule Regarding Benefits for Employees of FCUs
 12 CFR § 741.11           Final Regulation on Foreign Branching
 12 CFR Part 709           Proposed Rule:       “Treatment of Swap Agreements in
                           Liquidation or Conservatorship”
 5 CFR Parts 2637 and      Proposed Rule (Office of Government Ethics):         “Post-
 2641                      Employment Conflict of Interest Restrictions”
 12 CFR Parts 702, 741,    “Prompt Corrective Action”
 747
 12 CFR Part 702           Proposed Rule: “Prompt Corrective Action; Net Worth
                           Restoration Plans”
 IRPS 02-04                Proposed Rule: Change in Definition of Small Credit Union




                                           15
OIG Semiannual Report                                                        March 2003



                                      TABLE I

                    INSPECTOR GENERAL ISSUED REPORTS
                          WITH QUESTIONED COSTS

                                                   Number of   Questioned   Unsupported
                                                    Reports      Costs         Costs

A.     For which no management
       decision had been made by the                  0           $0              $0
       start of the reporting period.

B.     Which were issued during the
       reporting period.                              0            0              0

       Subtotals (A + B)                              0            0              0

C.     For which management decision
       was made during the reporting                  0            0              0
       period.

       (i) Dollar value of disallowed costs           0            0              0

       (ii) Dollar value of costs not                 0            0              0
       disallowed

D.     For which no management
       decision has been made by the end              0            0              0
       of the reporting period.

E.     Reports for which no management
       decision was made within six                   0            0              0
       months of issuance.


Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit
are not supported by adequate documentation; or the expenditure for the intended purpose
is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                              16
OIG Semiannual Report                                                     March 2003



                                     TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A             N/A

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A             N/A

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          17
OIG Semiannual Report                                            March 2003



                               TABLE III

                   SUMMARY OF OIG ACTIVITY
              OCTOBER 1, 2002 THROUGH MARCH 31, 2003

PART I – AUDIT REPORTS ISSUED
Report                                                            Date
Number     Title                                                  Issued
OIG-03-01  Region II Member Complaint Process Review              3/31/2003
OIG-03-02  Financial Audit: NCUA Operating Fund                   3/31/2003
OIG-03-03  Financial Audit: Share Insurance Fund                  3/31/2003
OIG-03-04  Financial Audit: Central Liquidity Facility            3/31/2003
OIG-03-05  Financial Audit: Community Development Revolving       3/31/2003
           Loan Fund

PART II – AUDITS IN PROCESS (as of March 31, 2003)
           Natio nal Review of NCUA’s Member Complaint Handling Process
           Review of NCUA’s Parking Operations Agreement
           Review of NCUA’s Risk Based Exam Scheduling Process




                                    18
OIG Semiannual Report                                               March 2003



             INDEX OF REPORTING REQUIREMENTS

 SECTION                       DATA REQUIRED                       PAGE REF
  4(a)(2)    Review of Legislation and Regulations                    15
  5(a)(1)    Significant Problems, Abuses, or Deficiencies             9
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant              9
             Problems, Abuses, or Deficiencies.
  5(a)(3)    Significant Recommendations Described in Previous        11
             Semiannual Reports on Which Corrective Action Has
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution              None
             Authorities and Prosecutions, Which Have Resulted.
  5(a)(5)    Summary of Each Report to the Board Detailing           None
             Cases Where Access to All Records Was Not
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting        18
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.              9
  5(a)(8)    Statistical Tables on Audit Reports With Questioned      16
             Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                 17
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                        19
OIG Semiannual Report                                         March 2003




                        WE WANT TO HEAR FROM YOU



                CALL THE OIG HOTLINE




                        TOLL FREE 1-800-778-4806

                        WASHINGTON METRO AREA
                            703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                   20
